November 7, 2011
ii
                                                                   Table of Contents
Management’s Discussion and Analysis .......................................................................................................................1
  Reporting Entity ........................................................................................................................................................1
     Medicare-Eligible Retiree Health Care Plan of Benefits .......................................................................................2
     Health Care Purchased from Civilian Providers ....................................................................................................3
     Payment for Health Care Provided in MTFs .........................................................................................................4
  Performance Measures ..............................................................................................................................................5
  Investments ................................................................................................................................................................5
  Status of FY 2010 Audit Findings .............................................................................................................................6
     Material Weaknesses 2010 ....................................................................................................................................6
     Significant Deficiency 2010 ..................................................................................................................................7
     Direct Care Costs ...................................................................................................................................................7
     Actions Taken ........................................................................................................................................................8
     Retail Pharmacy Refund Program (Standard Discount Program) ..........................................................................9
     Additional Discount Program (ADP) .................................................................................................................. 11
     Collections from SDP and the Additional Discount Program (ADP) .................................................................. 12
  Computation of Incurred Claims Reserve ............................................................................................................... 12
  Financial Performance Overview ............................................................................................................................ 13
     Financial Data ...................................................................................................................................................... 13
     Assets ................................................................................................................................................................... 14
     Liabilities ............................................................................................................................................................. 14
  Limitations of the Financial Statements .................................................................................................................. 15
  Internal Controls Over Financial Reporting and On Compliance With Other Matters ............................................ 15
Principal Statements .................................................................................................................................................... 17
  Balance Sheets ......................................................................................................................................................... 18
  Statements of Net Cost ............................................................................................................................................ 19
  Statements of Changes in Net Position .................................................................................................................... 20
  Statements of Budgetary Resources ........................................................................................................................ 21
Notes to the Principal Statements ................................................................................................................................ 22
  Note 1. Significant Accounting Policies ................................................................................................................. 22
  Note 2. Fund Balance with Treasury ...................................................................................................................... 25
  Note 3. Investments ................................................................................................................................................ 26
  Note 4. Accounts Receivable .................................................................................................................................. 28
  Note 5. Liabilities Not Covered by Budgetary Resources ...................................................................................... 29
  Note 6. Accounts Payable ....................................................................................................................................... 29
  Note 7. Commitments and Contingencies .............................................................................................................. 30
  Note 8. Military Retirement Benefit Liabilities ...................................................................................................... 31
  Note 9. Disclosures Related to the Statements of Net Cost .................................................................................... 35
  Note 10. Disclosure Related to the Statement of Changes in Net Position ............................................................. 37
  Note 11. Disclosures Related to the Statement of Budgetary Resources ................................................................ 37
  Note 12. Reconciliation of Net Cost of Operations to Budget ................................................................................ 38
  Note 13. Benefit Program Expense......................................................................................................................... 39
  Note 14. Earmarked Funds ..................................................................................................................................... 40
  Note 15. Other Disclosures ..................................................................................................................................... 41
Other Accompanying Information ............................................................................................................................... 42
     Exhibit 1--Actuarial Status Information .............................................................................................................. 43
     Exhibit 2--Summary of Financial Statement Audit and Management Assurances .............................................. 44
     Exhibit 3--IPIA Reporting Details September 30, 2011 ...................................................................................... 47
DoD Endorsement of Auditors’ Opinion ..................................................................................................................... 51
Independent Auditors’ Reports .................................................................................................................................... 55




                                                                                        i
ii
                                                Management’s Discussion And Analysis

                 Management’s Discussion and Analysis
           Summary of the Department of Defense Uniformed Services
                Medicare-Eligible Retiree Health Care Fund
                     For the Years Ended September 30, 2011 and 2010

Reporting Entity

The reporting entity is the Department of Defense (DoD) Uniformed Services Medicare-Eligible
Retiree Health Care Fund (the “Fund” or MERHCF). The Fiscal Year (FY) 2001 National
Defense Authorization Act (NDAA) directed the establishment of the Medicare-Eligible Retiree
Health Care Fund to pay for Medicare-eligible retiree health care beginning on October 1, 2002.
Prior to this date, care for Medicare-eligible beneficiaries was financed through annual
Congressional appropriations for space available care in Military Treatment Facilities (MTFs).
The Fund covers Medicare-eligible beneficiaries, regardless of age. In the context of the Fund,
hereafter the term “Medicare-eligible beneficiaries” is used to refer to Medicare-eligible
beneficiaries who are related to retirees (i.e., retirees themselves, dependents of retirees, and
survivors).

The NDAA also established an independent three-member DoD Medicare-Eligible Retiree
Health Care Board of Actuaries appointed by the Secretary of Defense. The Board is required to
review the actuarial status of the Fund, to report annually to the Secretary of Defense, and to
report to the President and the Congress on the status of the Fund at least every four years. The
DoD Office of the Actuary (OACT) provides all technical and administrative support to the
Board.

Within DoD, the Office of the Under Secretary of Defense (OUSD) for Personnel and Readiness
through the Office of the Assistant Secretary of Defense for Health Affairs, TRICARE
Management Activity (TMA), has as one of its missions operational oversight of the Defense
TRICARE Health Delivery System, including management of the Fund. TMA management
responsibilities include accounting for, documenting, and projecting annual budget distribution
requirements (purchased care claims, demands, and MTF prospective payments for anticipated
care provided in the direct care system), oversight of claims processors, monitoring/management
of the Improper Payments Information Act (IPIA) of 2002, and preparation of financial
statements and footnotes. The Defense Finance and Accounting Service (DFAS) provides
accounting and investment services for the Fund.

In FY 2011 and FY 2010 respectively, the Fund authorized approximately $9.5 billion and
$9.1 billion in total health care services, civilian providers $7.7 billion and $7.5 billion, MTFs
$1.4 billion and $1.2 billion, and Military Service Personnel Accounts $0.4 billion and $0.4, on
behalf of Medicare-eligible retirees, retiree dependents, and survivors.




                                                1
                                                 Management’s Discussion And Analysis

                         Final Fiscal Year Requirements and Funding Plan

  $ In Billions
                                         Operations &          Military
   Fiscal Year       Purchased Care                                             Final
                                         Maintenance          Personnel
        2011              $7.7               $1.4               $0.4             $9.5
        2010              $7.5               $1.2               $0.4             $9.1

The Fund receives income from three sources:
   1. An annual U.S. Treasury payment made on behalf of the Uniformed Services at the
      beginning of the year based on average budgeted force strengths
   2. Annual payments from the U. S. Treasury to amortize the unfunded liability, and
   3. Investment income

During the last two years of the Fund’s operation, income was received from the above sources
at the following amounts:

                                      MERHCF Funding Sources

    $ In Billions
                          Treasury Unfunded
                                                      Normal Cost           Interest on
       Fiscal Year        Actuarial Liability
                                                      Contribution         Investments
                           (UAL) Payment
2011                             $9.8                    $11.0                $9.2
2010                            $10.0                    $11.1                $5.3

No accounts of the Fund have been excluded from the Fund’s financial statements. The
significant increase in investments interest realized between FY 2011 and FY 2010 is due
primarily to improved economic conditions during FY 2011.


Medicare-Eligible Retiree Health Care Plan of Benefits

If beneficiaries age 65 and over cannot obtain care in a MTF, they can receive essentially no
charge civilian care through the TRICARE for Life (TFL) program. With this program,
TRICARE serves as the final payer for Medicare covered benefits, and first payer for TRICARE
benefits that are not covered in the Medicare or Other Health Insurance programs.

TFL covers Medicare-eligible retirees 65 years of age or older, including retired guardsmen and
reservists and Medicare-eligible family members and survivors. A beneficiary must be eligible
for Medicare Part A and enrolled in Medicare Part B. The Medicare-eligible retirees and family
members of the non-DoD Uniformed Services (Coast Guard, Public Health Service, and National
Oceanic and Atmospheric Administration) are also eligible for these benefits.

The TRICARE Pharmacy Program authorizes eligible beneficiaries to obtain low-cost
prescription medications from the TRICARE Mail Order Pharmacy (TMOP) and TRICARE
network and non-network civilian pharmacies. Beneficiaries may also continue to use military



                                                  2
                                                Management’s Discussion And Analysis

hospital and clinic pharmacies, at no charge. The pharmacy program is available to Medicare-
eligible beneficiaries and their dependent/survivors.

Finally, DoD beneficiaries, including Medicare-eligible beneficiaries, in specific locations where
Designated Provider Program (DPP), formerly the Uniformed Services Family Health Plan,
facilities are available, may enroll in capitation rate plans. These plans include inpatient and
outpatient services and a pharmacy benefit. The capitation rate is paid by DoD. Beneficiaries
who choose enrollment in these plans are ineligible for care in MTFs as well as benefits under
the TFL and Pharmacy programs.

Health Care Purchased from Civilian Providers

In accordance with Department of Defense Instruction (DoDI) 6070.2, “Department of Defense
Medicare-Eligible Retiree Health Care Fund Operations”, dated July 19, 2002, the TMA reports
daily obligations to the Fund for purchased care provided in the civilian sector. Daily claims are
validated by the voucher edit procedures required by the TRICARE/Civilian Health and Medical
Program of the Uniformed Services (CHAMPUS) Automated Data Processing Manual 6010.50-
M, dated May 1999, to ensure that only costs attributable to Medicare-eligible beneficiaries are
included in payments drawn from the Fund.

At the end of each month, claims processing costs are reconciled against monthly distribution
estimates and any over and/or under charged amounts are applied to the estimated requirement
for the following month. During the month of September, as fiscal year-end approaches, more
frequent reconciliation between charged accounts and available funds may occur and processing
can continue up to a predetermined cut-off date established by TMA in coordination with
DFAS-Indianapolis (DFAS-IN).

TMA reports obligations to the Fund for the estimated DPP obligation amount based on the
contract-specific capitation rates for Medicare-eligible beneficiaries enrolled for each DPP
hospital contract option period twice per year, upon the commitment of funds and prior to the
start of the option period. Each DPP hospital’s reported enrollment is used to reconcile
contracted enrollment estimates for Medicare-eligible beneficiaries. At the end of each option
period, total charges are reconciled against the estimate and any over and/or under charged
amounts are applied to the estimated requirement for the following option period.

At the beginning of each FY, a new Funding Authorization Document (FAD) for the
TFL/TRICARE Pharmacy purchased care expenditure limit is provided to the TMA Contract
Resource Management (CRM) Division.           By agreement with DFAS-IN, disbursement
transactions are provided by email the day prior to payment processing. DFAS-IN uses these
estimates to ensure sufficient funds are available for payment from the Fund for daily
transactions. The final purchased care payments for FY 2011 and FY 2010 were approximately
$7.1 billion.

TMA uses a TRICARE Dual Eligible Fiscal Intermediary Contract (TDEFIC) awarded to
Wisconsin Physician Services (WPS) for purposes of processing all claims supported by the
Fund, regardless of the geographic region in which care was received. Dual eligibility refers to



                                                3
                                                 Management’s Discussion And Analysis

health care users who are both Uniformed Services beneficiaries (retired, dependents of retired,
and survivors) and Medicare-eligible beneficiaries. Having a single fiscal intermediary to
process all dual-eligible claims ensures greater confidence in uniformity and consistency of
claims adjudication.


Payment for Health Care Provided in MTFs

TMA annually develops prospective payment amounts for care estimated to be provided in
MTFs to Medicare-eligible beneficiaries. The prospective payment amounts are calculated for
each MTF and include both Military Personnel (MILPERS) and Defense Health Program (DHP)
Operations and Maintenance (O&M) costs. TMA provides a memo to DFAS-IN with the
payment amounts by Military Service for MILPERS and DHP O&M that is reported on the
Standard Form 1081, Voucher and Schedule of Withdrawals and Credits by DFAS-IN.

The prospective payment amounts are based on costs reported by the MTF’s Medical Expense
and Performance Reporting System (MEPRS) and patient encounter data for the most recent
fiscal year for which data is complete at the time the calculations are prepared. TMA develops,
in coordination with the Military Departments and Office of the Under Secretary of Defense
(Comptroller) (OUSD(C)), MTF-specific rates in accordance with DoDI 6070.2, dated
July 19, 2002. MEPRS cost data are recorded separately for MILPERS and O&M components
per clinical workload. These amounts are inflated to the year of execution using Service-
provided budget data, and standard Office of Management and Budget (OMB) Consumer Price
Index-Urban (CPI-U) Medical inflation rates listed in the President’s Budget applicable to those
years. MEPRS data are recorded and maintained by the Military Services in accordance with
DoD 6010.13-M, “Medical Expense and Performance Reporting System for Fixed Military
Medical and Dental Treatment Facilities,” dated April 2008.

OUSD(C) distributes MTF prospective payment amounts based on the calculated annual total
program amount to the Military Services for MILPERS costs and to TMA for DHP O&M costs.
TMA, in turn, distributes DHP funds to the Military Services for execution. OUSD(C) includes
financial authority in the DHP Expense Operating Budget to finance the annual financial plan
requirement of the prospective payment.

When the year of execution is completed and the associated workload and cost data are available,
TMA conducts an execution review in coordination with OUSD(C) and the Military Services. A
comparison of prospective payment amounts to actual workload and costs is accomplished in
accordance with DoDI 6070.2, dated July 19, 2002.

The prospective O&M payment for MTF provided care to Medicare-eligible beneficiaries in
FY 2011 was $1.4 billion and $1.2 billion in FY 2010. While the unit costs of inpatient and
outpatient services have risen slightly, utilization of these services has continued to decline at a
greater rate. The prospective payment for MILPERS expenditure for care provided in the MTFs
to Medicare-eligible beneficiaries was $0.4 billion in FY 2011 and $0.4 billion in FY 2010.




                                                 4
                                               Management’s Discussion And Analysis

Performance Measures

The mission of the Fund is to finance, on an actuarially sound basis, liabilities of the DoD and
the uniformed services health care programs for specific Medicare-eligible beneficiaries. There
are many ways to measure the funding progress of actuarially determined accrual funds. The
ratio of assets in the Fund to the actuarial liability is a commonly used fund ratio. As of
September 30, 2011, the Fund had net assets available to pay benefits of $184.9 billion and an
actuarial liability of $533.70 billion; the funding ratio was 34.6%. As of September 30, 2010,
the Fund had net assets available to pay benefits of $163.6 billion and an actuarial liability of
$573.0 billion; the funding ratio was 28.6 %. Notwithstanding the effect of other actuarial gains
and losses that will occur over time, this ratio is expected to reach 100% once the initial
unfunded liability is fully amortized in accordance with a schedule set by the DoD Board of
Actuaries. The 50-year amortization period for the initial unfunded liability is scheduled to end
in FY 2052.


Investments
                                   Investments as of 9/30/11
                                        $187.82 billion
               Overnight                                  Notes, 4.02, 2%
           Securities, 5.91, 3%
                                                                            Bonds, 9.66, 5%
       Inflation, 29.35,
              16%




                                                                             TIPS, 138.88, 74%



                                            Figure 1

Figure 1 depicts the book value (par plus premium/discount less amortization of
premium/discount plus interest receivable) of investment holdings as of September 30, 2011.

The Fund receives investment income from a variety of U.S. Treasury-based instruments such as
bills, notes, bonds and overnight investment certificates. U.S Treasury bills are short-term
securities with maturities of less than one year issued at a discount. U.S Treasury notes are
intermediate securities with maturities of one to ten years. U.S Treasury bonds are long-term
debt instruments with maturities of greater than ten years. Overnight certificates are interest-


                                               5
                                               Management’s Discussion And Analysis

based market securities purchased from the U.S Treasury that mature the next business day and
accrue interest based on the Federal Reserve Bank of New York survey of reserve repurchase
agreement rates.

The Fund also invests in U.S Treasury Inflation Protected Securities (TIPS), which are indexed
for inflation. TIPS are fixed-rate instruments designed to protect against inflation, and the
principal amount is indexed to the consumer price index (CPI) by adjusting the CPI at issuance
to the current CPI; as inflation increases, so does the principal amount and the coupon.

All of these instruments are debt obligations of the U.S Government and are backed by the “full
faith and credit” of the federal government. Debt obligations of the U.S. Government have
virtually no risk of nonpayment of principal and interest at the specified due date.

The Fund receives management oversight from the DoD Investment Board established in
September 2003. The members of the Investment Board are the Director, Defense Finance and
Accounting Service; the Deputy Chief Financial Officer, Office of the Under Secretary of
Defense (Comptroller); and a senior military member, currently the Chief, Army Budget. The
Investment Board reviews the Fund’s Law and Department of Treasury guidelines to ensure
compliance with broad policy guidance and public law.


Status of FY 2010 Audit Findings

The MERHCF independent auditors noted three material weaknesses and one significant
deficiency during the FY 2010 Financial Statement Audit. The first three bullets are the material
weaknesses, of which the first was new. The last bullet is the significant deficiency, which was
also new for FY 2010.

Material Weaknesses 2010

       1. Because of the untimely receipt of quarterly refund calculations from the Pharmacy
          Operations Directorate, MERHCF personnel did not issue demand letters by
          September 30, 2010 for Accounts Receivable relating to the second and third quarters
          of FY 2010. Journal entries were recorded on September 30, 2010 for the refunds
          pertaining to the second and third quarters of FY 2010, as well as an estimate for the
          fourth quarter of FY 2010 refund calculation.

           With no Pharmacy Program second and third quarter demand letters issued before
           fiscal year’s end, the auditor could not confirm Accounts Receivable recorded for the
           Pharmacy Program as of September 30, 2010. In addition, because of the infancy of
           the Pharmacy Program, the auditor could not assess the reasonableness of the
           estimate recorded for the fourth quarter refund amount. The auditor was unable to
           apply adequate audit procedures to obtain reasonable assurance that the balance was
           fairly stated.




                                               6
                                                 Management’s Discussion And Analysis

       2. MTF-related amounts of direct care costs are estimated by MERHCF’s actuaries and
          others using data extracted from various Military Service financial, personnel, and
          workload systems within DoD. With respect to extracted data, the MTFs did not have
          compliant, transaction-based accounting systems that apply common and consistent
          business rules in a manner envisioned by the DoD’s planned Standard Financial
          Information Structure.

       3. The healthcare cost data from the MTF’s provided for the estimation process are
          aggregated or derived from information in both financial and non-financial systems
          within the Military Services that have not been audited. The MTF-level data are
          based on budget execution processes, rather than accrual-based accounting. There is
          insufficient evidence that appropriate and consistent cutoff of accounting activity
          occurs at the MTF level.

Significant Deficiency 2010

       1. To participate in the Pharmacy Program, manufacturers must sign an agreement with
          TRICARE Management Activity, stating that the manufacturer will reimburse the
          TRICARE Management Activity, in the manner elected on the agreement, for
          pharmaceutical drug claims covered by the program. This refund is calculated on the
          data provided by a third-party contractor. The third-party contractor generates the
          data from paid TRICARE beneficiary pharmacy claims.

       2. The auditor noted that no internal control exists at the Pharmacy Operations
          Directorate for the validation of data provided by the third-party contractor. The
          Pharmacy Program data is used to calculate the quarterly refund amounts for the
          program.


Direct Care Costs

At issue with the lack of a patient-level cost accounting system, material weaknesses 1 and 2
above, is the fact the actuarial liability for Medicare-eligible retiree benefits as of
September 30, 2011 and 2010 is approximately $73.6 billion (14% of total) and $73.2 billion
(13% of total), respectively, which reflects the actuarial present value of the projected direct-care
costs of benefits to be provided by MTFs to MERHCF beneficiaries.

Additionally, the reported amounts of program revenues and cost for the year ended
September 30, 2011, include approximately $2.8 billion and $1.8 billion, respectively, and for
the year ended September 30, 2010, include approximately $2.6 billion and $1.6 billion,
respectively, of amounts related to direct care costs. Such MTF-related amounts of direct-care
costs are estimated by the Fund’s actuaries using data extracted from various Service-specific
financial, personnel, and workload systems within DoD. With respect to extracted data, the
MTFs do not have Office of Management and Budget Circular A-127, Financial Management
Systems, compliant, transaction-based accounting systems and cannot report the costs of an
individual patient’s care.



                                                 7
                                                 Management’s Discussion And Analysis

True patient-level cost accounting systems are currently not available within TRICARE. In lieu
of such a system, the DoD has developed a cost allocation tool, the MEPRS, which enables
MTFs to allocate all costs associated with the daily operation of the facility into the inpatient,
outpatient, dental, and ancillary service cost centers. Average costs per weighted workload unit
can then be computed for various patient care activities.

The average costs per weighted workload unit are then applied to specific care provided to
specific patients by reviewing the Standard Inpatient Data Record (SIDR) and Standard
Ambulatory Data Record (SADR) reported in the MHS Data Repository. The SIDRs and
SADRs are prepared for each patient encounter and contain patient-specific information, to
include name, Social Security Number, sponsor or dependent status, and Medicare eligibility.
Further, the SIDRs and SADRs reflect the diagnosis and any procedures performed on the
patient for that specific encounter. The average costs per weighted workload unit computed in
MEPRS is then applied against the specific data contained in the SIDRs and SADRs to
determine an average cost for care provided to a specific patient. Estimates of the weighted
workload provided to Medicare-eligible beneficiaries are calculated for each MTF based on
historical experience. When the weighted workload costs are applied against the projected
workload volume for each MTF, a prospective payment distribution plan can be computed for
each MTF for the next fiscal year.

While inpatient and ambulatory encounter costs are weighted at the MTF level as described
above, MTF outpatient pharmacy costs represent the largest cost driver for the actuarial liability.
The reconciliation tasks performed by TMA management’s support contractor have also assessed
and documented the operation of Pharmacy Data Transaction Service, data to support both the
prospective payment and calculation of the actuarial liability.

The prospective payments made to the MTFs are reconciled with actual workload activity after
the close of the fiscal year. The results of the reconciliation are used to adjust projections of
MTF workload levels and costs for the future prospective payment distribution plan. The results
of the reconciliation will not be used to make adjustments to the current prospective payment
distribution plan either during execution year activities or to a specific distribution subsequent to
the close of the fiscal year’s operation.

Issues with the prospective payment process include validating/reconciling financial data prior to
its input into the MEPRS cost allocation process, archiving MEPRS data at the close of each
month, and reconciling in a timely manner the fiscal year prospective payment plan.


Actions Taken

Since FY 2003, when the Fund was established, MERHCF management has attempted to resolve
auditor-identified material weaknesses through the development of key milestone initiatives.
These initiatives were established and managed by TMA leadership and intended to serve as
work-arounds to address the Services’ financial systems’ deficiencies. The material weaknesses
are associated with the computation of that portion of the MERHCF health care liability
involving the care provided to Medicare-eligible beneficiaries in the MTFs.



                                                 8
                                                Management’s Discussion And Analysis

Unfortunately, the milestone initiatives have not produced the desired results in the projected
time frame. To mitigate risks associated with these weaknesses, and to initiate appropriate
corrective actions, we have developed a revised financial improvement plan with key milestones
to incorporate a methodology to use per capita rates to prospectively compensate the Military
Services each year for health care provided to Medicare-eligible beneficiaries in DoD MTFs.
This methodology will also be used by the Office of the Actuary to compute the MERHCF
health care liability. The use of per capita rates will enable the MERHCF to eliminate the need
to rely on MTFs for auditable financial information and accurate coding of medical records and,
thus, move to an unqualified audit opinion independent of the Military Services’ receipt of
unqualified audit opinions on their financial statements.

Creating a new model is very complex and resource intensive. The model must comply with
actuarial laws and requirements as well as satisfy accounting, Government Accountability
Office, and Congressional standards. Data on which the new model will be developed must be
collected over time for several fiscal years with appropriate adjustments, as trends dictate. The
initial data collected from the Center for Medicare and Medicaid Services by the OACT
contained 2.2 million records on Medicare-eligible retirees and dependents. Additional time will
be required to collect industry benchmark data, analyze the data, and develop and test the model.
After testing, modifications may also be required, therefore, the time table for implementation of
the per capita rate methodology is for the close of FY 2013.

Direct care costs developed under this proposed method will still retain the current plan design
wherein Medicare does not reimburse DoD for care received in MTFs.

Retail Pharmacy Refund Program (Standard Discount Program)

Section 703 of the National Defense Authorization Act for Fiscal Year 2008, codified as
10 U.S.C. 1074g(f) provides:

(f) Procurement of pharmaceuticals by TRICARE Retail Pharmacy Program. With respect to
any prescription filled on or after the date of the enactment of the National Defense
Authorization Act for FY 2008 [January 28, 2008], the TRICARE Retail Pharmacy Program
shall be treated as an element of the Department of Defense for purposes of the procurement of
drugs by Federal agencies under Section 8126 of Title 38 to the extent necessary to ensure that
pharmaceuticals paid for by the Department of Defense that are provided by pharmacies under
the program to eligible covered beneficiaries under this section are subject to the pricing
standards in such Section 8126. The effect of this law is that for all prescriptions filled on or
after January 28, 2008, all covered TRICARE Retail Pharmacy Network drug prescriptions are
subject to Federal Ceiling Prices (FCPs).

While DoD took steps to implement the Statute, there was a concurrent litigation challenge to the
validity of the Final Rule in a case called Coalition for Common Sense in Government
Procurement v. U.S., U.S. District Court for the District of Columbia, Civ. No. 08-996 (JDB),
2009 U.S. Dist. LEXIS 110746. The Court issued a decision November 30, 2009. The decision
had four major points:




                                                9
                                                Management’s Discussion And Analysis

   •   Although 10 U.S.C. § 1074g(f) requires that FCPs shall apply, the Statute does not
       specify how they will apply. DoD incorrectly interpreted the Statute as requiring
       manufacturer refunds, to the exclusion of other possible approaches. DoD must
       reconsider the implementation of the Statute as a function of its discretionary judgment,
       rather than only as a legal interpretation. For example, DoD should exercise its discretion
       to consider “which of the five parties that participate in the retail pharmacy program –
       manufacturers, wholesalers, network pharmacies, private pharmacy benefit managers,
       and TRICARE beneficiaries – must bear any costs associated with imposing the Federal
       Ceiling Prices.”

   •   While DoD considers whether to readopt the Final Rule as it currently stands or to
       change it, the Final Rule will remain in effect, as will the manufacturer agreements that
       cover approximately 99% of TRICARE retail prescriptions. (This is the effect of the
       Court’s Order that the Final Rule is “remanded without vacatur.”)

   •   DoD correctly interpreted the Statute as applying Federal Ceiling Prices to all
       prescriptions filled on or after January 28, 2008.

   •   The Court ordered DoD to file a status report with the Court no later than March 1, 2010,
       “documenting its consideration on remand.”

Following the Court order, the Plaintiff, representing the pharmaceutical companies, filed a
notice of appeal to the United States Court of Appeals for the District of Columbia Circuit. DoD
initiated action to comply with the Court order through a notice in the Federal Register
February 9, 2010, inviting additional public comments on the matters addressed by the Court.
DoD intends to consider public comments received and to reissue a Final Rule in 2010,
consistent with the views expressed by the Court. On February 17, 2010, the government filed a
status report with the Court which advised the Court of the February 9, 2010, Federal Register
notice. The Status Report also informed the Court that DoD has been receiving payments for
pharmaceuticals covered by the Voluntary Uniform Formulary agreements and that a number of
manufacturers have requested waivers. In the meantime, the 2009 Final Rule remains in effect.
Following the issuance of the 2010 Final Rule, DoD anticipates litigation will continue.

On October 15, 2010, DoD completed reconsideration of the 2009 Final Rule and published its
Final Rule at 75 Federal Register 63,383. The DoD elected to retain the requirement that had
been challenged by manufacturers: that pharmaceutical manufacturers refund any amounts
charged to DoD in excess of Federal Ceiling Prices. The Coalition for Common Sense in
Government Procurement appealed to the District Court for the District of Columbia, requesting
an injunction. This appeal was pending in FY 2010 and finalized in FY 2011. The court did not
grant an injunction.

MERHCF has begun the process to compute amounts potentially owed for the period of
January 28, 2008 through June 30, 2009, however much uncertainty remains. The TMA Office
of the General Counsel (OGC) will need to review the amounts calculated as owed in
conjunction with weighing the legal merits of manufacturer waiver compromises and/or other
amounts in dispute. As such, the MERHCF cannot determine a reasonable estimate for the


                                               10
                                               Management’s Discussion And Analysis

amounts owed as of September 30, 2011. In light of the uncertainty regarding the amount
MERHCF will issue demand letters for, and the likely additional litigation that may result in
response to billings for the period in question, Management has concluded the requirements for
recognition of exchange transactions, as defined in SFFAS 7, “Accounting for Revenue and
Other Financing Sources and Concepts for Reconciling,” have not been met. Therefore, a gain
contingency exists as it relates to Accounts Receivable relating to the TRICARE Retail
Pharmacy Program for prescriptions filled from January 28, 2008 through June 30, 2009. The
fund has appropriately disclosed this contingency in Note 7 of the accompanying financial
statements.

Additional details relating to the litigation as well as the uncertainty surrounding the amount
owed to the MERHCF are provided below.

•   The Final Rules also incorporated the regulatory overpayment recovery procedures of
    32 C.F.R. §199.11 based upon the Federal Claims Collection Act and related laws for
    waiver/compromise of overpayment refunds for all such prescriptions. The applicability of
    §199.11 brings with it a procedure for a manufacturer to request waiver/compromise of a
    contested refund amount due.

•   Resolution of waiver/compromise requests had been in abeyance pending the 2010
    regulatory reconsideration. TMA is in the process of calculating refunds for CY 2008 for
    covered drug prescriptions purchased by TRICARE beneficiaries on or after
    January 28, 2008.

•   Refund calculations must be run sequentially since the Department of Veteran Affairs (DVA)
    Pricing File (the source prescribed by law for the DoD Master Pricing File) is amended
    annually each November with changes, additions, deletions, and transfers submitted by the
    pharmaceutical manufacturers of their Non-Federal Average Manufacturer Price (Non-
    FAMP). After calculation of the refund amounts for the individual quarters for CY 2008,
    TMA will proceed with calculations for the first two quarters of CY 2009.

•   Upon receipt of final calculations, TMA will issue demand letters for remaining balances and
    will commence with resolution of all submitted waiver/compromise requests.

The decision was made to issue demand letters for the period subsequent to June 30, 2009.


Additional Discount Program (ADP)

TMA initiated a new retail pharmacy rebate program during the 2nd Quarter, FY 2007, Voluntary
Agreements for TRICARE Retail Network Rebates (VARR/ADP). Manufacturers may offer
rebates to the DoD for pharmaceutical agents dispensed through the TRICARE Retail pharmacy
network.




                                               11
                                                Management’s Discussion And Analysis

Collections from SDP and the Additional Discount Program (ADP)

During FY 2011, the MERHCF received a total of $690.5 million in retail pharmacy SDP
refunds and $300.2 million in retail pharmacy ADP refunds.

Computation of Incurred Claims Reserve

The actuarial determination of the Fund’s liability for Incurred But Not Reported (IBNR) claims
for purchased care to the Fund’s beneficiaries relies on data files provided by TMA to the
OACT. Due to the lack of a fully integrated financial management system to support the DHP,
certain data are provided to the OACT from health care operational sources, rather than from the
accounting and financial records of claims payment activity.

The TMA/CRM Division in Aurora, Colorado, monitors claims processing activities performed
by the TDEFIC fiscal intermediary, WPS, in support of purchased care activities for Medicare-
eligible beneficiaries. To better monitor purchased care claims processing and mitigate the
potential for an undetected large increase in claims backlogs occurring in the future, MERHCF
management has developed a quarterly purchased care claims backlog metric to report to
OUSD(C).

Each quarter MERHCF estimates the IBNR purchased care claims liability. IBNR represents
health care received by Medicare-eligible beneficiaries for which DoD has not yet received a
claim. The purchased care claims processing metric monitors the completeness of the data used
for the IBNR liability calculation. The metric is calculated by dividing the liability from claims
on hand that is actually used in the IBNR calculation (without any backlogged claims) by the
liability that includes any claims backlogged at the time of the IBNR calculation.

By their nature, IBNR calculations need regular and normally distributed data. The data does not
have to be 100% complete, but must include a percentage of claims large enough to represent the
normal claims universe, and most importantly, the degree of the claims completeness should
remain relatively constant over time.

The goal is to ensure the IBNR calculation is based upon no less than 85% of the liability
contained on all processed and backlogged claims. It is anticipated that 8% to 12% of available
monthly claims will not be included in the IBNR calculation due to the cutoff of processed
claims by 10:00 am EST on the last business day of the month. The cutoff was established to
ensure IBNR calculations could be completed in time to meet reporting requirements. For
FY 2011 and FY 2010, the IBNR calculation included 100% of available monthly claims.




                                               12
                                                   Management’s Discussion And Analysis

Financial Performance Overview
Financial Data

The following table presents comparative financial statement information for the MERHCF.

                                Medicare-Eligible Retiree Health Care Fund
                                       Analysis of Financial Statements
                               for the years ended September 30, 2011 and 2010
                                               ($ In Thousands)
                                                                                  Difference
                                                                                                    %
Consolidated Balance Sheets                        2011            2010            Increase/
                                                                                                  Change
                                                                                  (Decrease)
Fund Balance with Treasury                         $227,170        $195,962           $31,208      15.9%
Investments (Intra-Governmental
Securities)
- Revenue from Treasury payments and
Service contributions excess to current year
health care benefit payments is invested in
Treasury securities                            $187,826,062    $166,203,523       $21,622,539      13.0%
Liabilities Not Covered by Budgetary
Resources
  - Represents difference between actuarial
liability for future benefit payments and
current assets                                 $348,753,354,   $409,407,569       ($60,654,215)    (14.8%)
Accounts Receivable, Net
A/R associated with Standard Discount
Program (SDP)                                      $497,982        $562,924           ($64,942)    (11.5%)
Accounts Payable (Intra-governmental)              $101,275         $91,603            $9,672      10.6%
Accounts Payable (Non-Federal)                     $321,360        $212,089          $109,271      51.5%
Military Retirement and Other Federal
Employment Benefits
  - Represents actuarial liability of future
health care benefit and Incurred But Not
Reported (IBNR) liability                      $534,379,945    $573,671,310       ($39,291,365)     (6.8%)

Statements of Net Cost
Net costs of operation
- Changes in computation of actuarial
health care liability are the major
contributor to changes in net costs of
operation                                      ($60,761,227)    $45,159,317      ($105,920,544)   (234.5%)

Statements of Budgetary Resources
Undelivered orders                                 $100,212         $63,232           $36,980      58.5%
Net Outlays                                    ($10,203,340)    ($6,691,306)       ($3,512,033)    52.5%




                                                   13
                                               Management’s Discussion And Analysis

Assets

Assets of $188.5 billion, included in the previous table and shown in Figure 2, represent amounts
that the MERHCF owns and manages. Assets increased $21.60 billion at the end of FY 2011.
This increase is largely attributable to purchasing new investments of $18.7 billion with funds
received from the U.S. Treasury payments, Service contributions, and interest received. The net
increase in investments is related to expected normal growth to cover unfunded portions of future
military retirement benefits. Funds not needed to pay current benefits are held in separate trust
and special funds and invested in U.S. Treasury securities.

                                         Total Assets
                                    $188,551,214 thousand
         Fund Balance With
         Treasury, 227,170,                                               Accounts
               0.12%                                                     Receivable,
                                                                       497,982, 0.26%




                Investments,
                187,826,062,
                  99.62%
                                            Figure 2

Liabilities

Liabilities of $534.8 billion included in the previous table and shown in Figure 3 represent
liabilities related to military retirement pension benefits. The liabilities of the MERHCF
primarily consist of actuarial liability for future benefit payments. Liabilities decreased
$39.2 billion at the end of FY 2011. This increase is largely attributable to the decrease in the
actuarial liability calculation.




                                               14
                                                Management’s Discussion And Analysis

                                        Total Liabilities
                                     $534,802,580 thousand
                                                                          Accounts Payable--
       Accounts Payable--                                                 Public, $321,360 ,
       Federal, $101,275 ,                                                      0.06%
             0.02%




       Military Retirement
       and Other Federal
          Employment
             Benefits,
        $534,379,945 ,
              99.92%

                                             Figure 3


Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations for the MERHCF pursuant to the requirements of the Chief Financial Officers
(CFO) Act of 1990. While the statements have been prepared from the books and records of the
MERHCF in accordance with the U.S. generally accepted accounting principles (U.S. GAAP)
for Federal entities and the formats prescribed by OMB, these statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the
same books and records. The statements should be read with the realization they are for a
component of the U.S. Government, a sovereign entity.


Internal Controls Over Financial Reporting and On Compliance With Other
Matters

During an independent audit of the Fund’s financial statements, the auditor identified
deficiencies related to the internal control over the preparation, analysis, and monitoring of
financial information to support the efficient and effective preparation of financial statements.
Because of these deficiencies, the auditor believes the Fund’s financial management system does
not meet the requirements of an integrated financial management system as defined in OMB
Circular A-127, with respect to consistent internal control over data entry, transaction processing
and reporting. Further, the auditors believe the Fund is not in compliance with the system design
requirements sufficient to comply with internal and external reporting requirements, including,
as necessary, the requirements for financial statements prepared in accordance with the form and



                                                15
                                              Management’s Discussion And Analysis

content prescribed by OMB and reporting requirements prescribed by Treasury, and to monitor
the financial management system to ensure integrity of financial data.

The TMA assessments of internal controls identified one new systemic weakness concerning
accounts receivable due from pharmaceutical manufacturers’ refunds for drugs dispensed from
retail pharmacies, which was reflected in the FY 2010 audit opinion and the FY 2011 TMA
Statement of Assurance. Note: Due to the timing of the assessment of Internal Controls, which
ends as of June 30, compared to audit, which ends as of September 30, there may be
inconsistencies as to weaknesses noted. While the IPA noted a Material Weakness in 2010
related to TRICARE Retail Pharmacy Program, in FY 2011 they did not re-issue this finding.

More detailed discussion of the auditors findings on internal controls can be found in the
“Independent Auditors’ Report on Internal Control” and on “Compliance and Other Matters.”




                                              16
                                   Principal Statements




The accompanying notes are an integral part of these statements

                                                          17
                                                                                        Principal
                                                                                      Statements

 Balance Sheets

                                     Department of Defense
                  Uniformed Services Medicare-Eligible Retiree Health Care Fund
                                      BALANCE SHEETS
                               As of September 30, 2011 and 2010


 ($ In Thousands)                                                        2011                  2010
 ASSETS
  Intragovernmental:
   Fund Balance with Treasury (Note 2)                            $       227,170      $        195,962
   Investments (Note 3)                                                187,826,062          166,203,523
  Total Intragovernmental Assets                                       188,053,232           166,399,485

  Accounts Receivable,Net (Note 4)                                         497,982              562,924
 TOTAL ASSETS                                                     $    188,551,214     $    166,962,409

 LIABILITIES
  Intragovernmental:
   Accounts Payable (Note 6)                                      $        101,275     $         91,603
  Total Intragovernmental Liabilities                                      101,275               91,603

  Accounts Payable (Note 6)                                                321,360              212,089
  Military Retirement Benefit Liabilities (Notes 5 and 8)              534,379,945          573,671,310
 TOTAL LIABILITIES                                                $    534,802,580     $    573,975,002

 COMMITMENTS AND CONTINGENCIES (Note 7)

 NET POSITION
  Cumulative Results of Operations - Earmarked Funds                  (346,251,366)        (407,012,593)
 TOTAL NET POSITION                                               $   (346,251,366)    $   (407,012,593)

 TOTAL LIABILITIES AND NET POSITION                               $   188,551,214      $    166,962,409




The accompanying notes are an integral part of these statements

                                                          18
                                                                                       Principal
                                                                                     Statements

Statements of Net Cost
                                     Department of Defense
                  Uniformed Services Medicare-Eligible Retiree Health Care Fund
                                 STATEMENTS OF NET COST
                        For the Years ended September 30, 2011 and 2010



 ($ In Thousands)                                                        2011                2010
 Program Costs
  Gross Costs (Note 9)                                            $     8,820,043     $     8,050,695
  (Less: Earned Revenue)                                              (30,253,771)        (26,420,118)
  Net Cost before Losses/(Gains) from Actuarial
 Assumption Changes                                               $   (21,433,728)    $   (18,369,423)

  Losses/(Gains) from Actuarial Assumption Changes                $   (39,327,499)    $    63,528,740
 Net Cost of Operations                                           $   (60,761,227)    $    45,159,317




The accompanying notes are an integral part of these statements

                                                          19
                                                                                        Principal
                                                                                      Statements

Statements of Changes in Net Position

                                      Department of Defense
                  Uniformed Services Medicare-Eligible Retiree Health Care Fund
                        STATEMENTS OF CHANGES IN NET POSITION
                         For the Years Ended September 30, 2011 and 2010


 ($ In Thousands)                                                         2011                 2010
 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                               $   (407,012,593)    $   (361,576,518)
 Prior Period Adjustments:
    Corrections of errors (+/-)                                                   0            (276,758)
 Beginning balances, as adjusted                                      (407,012,593)        (361,853,276)
 Net Cost of Operations (+/-)                                          (60,761,227)          45,159,317
 Net Change                                                             60,761,227          (45,159,317)

 Cumulative Results of Operations                                     (346,251,366)        (407,012,593)

 Net Position                                                     $ (346,251,366)      $   (407,012,593)




The accompanying notes are an integral part of these statements

                                                          20
                                                                                       Principal
                                                                                     Statements

Statements of Budgetary Resources
                                      Department of Defense
                  Uniformed Services Medicare-Eligible Retiree Health Care Fund
                        STATEMENTS OF BUDGETARY RESOURCES
                        For the Years Ended September 30, 2011 and 2010

 ($ In Thousands)                                                       2011                 2010
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1                  $             0     $             0
 Budget authority
    Appropriation                                                      30,118,797          26,215,989
    Subtotal                                                           30,118,797          26,215,989
 Temporarily not available pursuant to Public Law                     (21,362,849)        (17,593,148)
 Permanently not available                                                       0                   0
 Total Budgetary Resources                                        $     8,755,948     $     8,622,841

 STATUS OF BUDGETARY RESOURCES
 Obligations incurred:
   Direct                                                         $    8,755,948      $    8,622,841
   Subtotal                                                            8,755,948           8,622,841
 Unobligated balance:
   Subtotal                                                                    0                   0
 Unobligated balance not available                                             0                   0
 Total status of budgetary resources                              $    8,755,948      $    8,622,841

 CHANGE IN OBLIGATED BALANCE
 Obligated balance, net
   Unpaid obligations, brought forward, October 1                 $       366,924     $       173,192
   Total unpaid obligated balance, net                                    366,924             173,192
 Obligations incurred, net (+/-)                                        8,755,948           8,622,841
 Gross outlays                                                         (8,600,024)         (8,429,109)
 Obligated balance, net, end of period
   Unpaid obligations                                                           0            366,924
   Total, unpaid obligated balance, net, end of period            $      522,848      $      366,924

 NET OUTLAYS
   Gross outlays                                                  $     8,600,024     $     8,429,109
   Less: Distributed Offsetting receipts                              (18,803,364)        (15,120,415)
  Total Outlays                                                   $   (10,203,340)    $    (6,691,306)



The accompanying notes are an integral part of these statements

                                                          21
                                                       Notes to the Principal Statements

                     Notes to the Principal Statements

Note 1. Significant Accounting Policies

A. Basis of Presentation These financial statements have been prepared to report the financial
position and results of operations for the Medicare-Eligible Retiree Health Care Fund
(MERHCF), as required by the Chief Financial Officers Act of 1990, expanded by the
Government Management Reform Act of 1994, and other appropriate legislation. The financial
statements have been prepared using the books and records of MERHCF in accordance with U.S.
generally accepted accounting principles (USGAAP) promulgated by the Federal Accounting
Standards Advisory Board; the Office of Management and Budget Circular No. A-136, Financial
Reporting Requirements; and the Department of Defense (DoD) Financial Management
Regulation. The accompanying financial statements account for all resources for which
MERHCF is responsible unless otherwise noted.

The MERHCF currently has two auditor-identified financial statement material weaknesses:
(1) The DoD-managed Military Treatment Facilities (MTFs) do not have compliant, transaction-
based accounting systems that support the costs of direct care provided to MERHCF
beneficiaries and (2) the MTF-level health care cost data is based on budget execution processes
rather than accrual-based accounting. See Note 4, Accounts Receivable and Note 7,
Commitments and Contingencies for further information and disclosures.

B. Mission of the Reporting Entity. The mission of MERHCF is to accumulate funds in order to
finance, on an actuarially sound basis, liabilities of health care programs for DoD Military
Services and other Uniformed Services. The MERHCF provides benefits for a Medicare-eligible
member of a participating Military Service or other Uniformed Service entitled to retired or
retainer pay and such member’s Medicare-eligible dependents or survivors.

C. Appropriations and Funds. Public Law 106-398, The Floyd D. Spence National Defense
Authorization Act for Fiscal Year 2001, authorized MERHCF and provided a permanent,
indefinite appropriation. Permanent authority becomes available based upon standing provisions
of law without any further legislative action by the Congress after transmittal of the budget for
each year. The law does not specify an amount of budget authority for the indefinite
appropriation; however, the law does specify a variable factor that determines the amount
available until expended.

The MERHCF is a special fund. Special fund accounts are used to record government receipts
reserved for a specific purpose. Accordingly, the funds in MERHCF are used, in compliance
with the law, to provide benefits for the Medicare-eligible beneficiaries listed in paragraph 1B.

Certain trust and special funds may be designated as earmarked funds. Earmarked funds are
financed by specifically identified revenues; required by statute to be used for designated
activities, benefits or purposes; and remain available over time. The MERHCF is required to
separately account for and report on the receipt, use, and retention of revenues and other
financing sources for earmarked funds.


                                               22
                                                        Notes to the Principal Statements


D. Basis of Accounting. The MERHCF’s financial management systems record and report on
the accrual basis. Financial and nonfinancial feeder systems and processes are updated from
legacy systems to collect and report financial information in accordance with USGAAP.

The financial statements and supporting trial balances are compiled from the underlying financial
data and trial balances. The underlying data for the MERHCF is largely derived from budgetary
(obligations, disbursements, and collections) and proprietary transactions (assets and liabilities)
and accruals made for major items such as accounts receivable, accounts payable, and health care
liabilities.

E. Revenues and Other Financing Sources. Using methods and assumptions approved by the
DoD MERHCF Board of Actuaries, the DoD Office of the Actuary determines the amount of the
contribution to MERHCF. The contribution consists of two parts: a U. S. Treasury warrant for
the amortization payment of the original unfunded liability and an annual contribution from each
Uniformed Service: Army, Navy, Air Force, Marine Corps, U.S. Coast Guard, Public Health
Service, and National Oceanic and Atmospheric Administration. Funds from the contributions
that exceed the amounts required to pay current year expenses are invested in long-term
securities. These investments and their associated interest revenues will be used to cover future
liabilities of MERHCF.

F. Recognition of Expenses.     For financial reporting purposes, DoD policy requires the
recognition of benefit expenses for the period incurred. The current financial management
systems for MERHCF collect and record on full accrual accounting basis for liabilities and
expenses of the fund.

G. Accounting    for Intragovernmental Activities.         The U.S. Treasury’s Federal
Intragovernmental Transactions Accounting Policy Guide and the Treasury Financial Manual,
Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United
States Government, provide guidance for reporting and reconciling intragovernmental balances.
The MERHCF is able to reconcile balances pertaining to investments in federal securities.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is
not included. The Federal Government does not apportion debt and its related costs to federal
agencies. The DoD financial statements do not report any public debt, interest, or source of
public financing, whether from issuance of debt or tax revenues..

H. Funds with the U.S. Treasury. The MERHCF’s monetary resources are maintained in U.S.
Treasury accounts. The disbursing offices of the Defense Finance and Accounting Service
(DFAS) and other DoD Agency financial service centers process the majority of MERHCF’s
cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares
monthly reports that provide information to the U.S. Treasury on checks issued, electronic fund
transfers, interagency transfers, and deposits.

In addition, DFAS sites and other DoD Agency service centers submit reports to the U.S.
Treasury, by appropriation, on interagency transfers, collections received, and disbursements



                                                23
                                                       Notes to the Principal Statements

issued. The U.S. Treasury records these transactions to the applicable Fund Balance with
Treasury (FBWT) account. The MERHCF reconciles monthly with the U.S. Treasury account
with no outstanding discrepancies.

The U.S. Treasury allows MERHCF to be fully invested. Therefore, FBWT may be zero at
various times during the fiscal year including the end of a quarter or a fiscal year; however,
internal controls are in place to prevent abnormal balances at the U.S. Treasury.

I. Accounts Receivable. Accounts receivable from other federal entities or the public include
accounts receivable, claims receivable, and refunds receivable. Allowances for uncollectible
accounts due from the public are based upon analysis of collection experience by fund type. The
DoD does not recognize an allowance for estimated uncollectible amounts from other federal
agencies. Claims against other federal agencies are to be resolved between the agencies in
accordance with dispute resolution procedures defined in the Intragovernmental Business Rules
published in the Treasury Financial Manual.

Since the beginning of the Federal Ceiling Price (FCP) Program, outpatient pharmaceuticals
purchased by DoD for medical treatment facility pharmacies have been subject to FCPs, as have
those under the TRICARE Mail Order Pharmacy (TMOP) program. The MERHCF
implemented FCPs for the TRICARE Retail Pharmacy program in compliance with the National
Defense Authorization Act for Fiscal Year 2008, §703. The Final Rule was published March 17,
2009, with an effective date of May 26, 2009. The MERHCF applied this rule to all retail
prescriptions filled on orafter January 27, 2008, unless the TMA granted a waiver to a particular
manufacturer. Compliance is mandatory and the advantage to the manufacturers is that their
drugs will be included on the DoD Uniform Formulary (list of available prescription drugs). The
MERHCF will record accounts receivable upon receipt of the calculation from the TRICARE
Pharmacy Operations Directorate and will post the collections from the manufacturers to the
fiscal year of receipt pursuant to Title 10, U.S.C. §1079a.

J. Investments in U.S. Treasury Securities. The MERHCF reports investments in U.S. Treasury
securities at cost, net of amortized premiums or discounts (book value). Premiums or discounts
are amortized over the term of the investment using the effective interest method. The
MERHCF’s intent is to hold investments to maturity unless they are needed to finance claims or
otherwise sustain operations. Consequently, there is no provision for unrealized gains or losses
on these securities.

The MERHCF invests in nonmarketable, market-based U.S. Treasury securities which are issued
to federal agencies by the U. S. Treasury, Bureau of the Public Debt. These securities mirror
marketable securities, but are not publicly traded. The MERHCF receives interest semiannually
from the U.S. Treasury on the value of these securities.

K. Contingencies and Other Liabilities. The SFFAS No. 5, Accounting for Liabilities of the
Federal Government, as amended by SFFAS No. 12, Recognition of Contingent Liabilities
Arising from Litigation, defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be
resolved when one or more future events occur or fail to occur. The MERHCF recognizes



                                               24
                                                        Notes to the Principal Statements

contingent liabilities when past events or exchange transactions occur, a future loss is probable,
and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist but there is at least a reasonable possibility of incurring a loss or additional losses.

L. Net Position. Net position consists of cumulative results of operations. Cumulative results
of operations represent the net of expenses, losses, and financing sources (including
appropriations, revenue, and gains) since inception.

M. MRB. The DoD applies SFFAS No. 33, “Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions and
Selecting Discount Rates and Valuation Dates”, in selecting the discount rate and valuation date
used in estimating actuarial liabilities. In addition, gains and losses from changes in long-term
assumptions used to estimate the actuarial liability are presented separately on the Statement of
Net Cost. Refer to Note 8, Military Retirement and Other Federal Employment Benefits and
Note 9, General Disclosures Related to the Statement of Net Cost, for additional information.


Note 2. Fund Balance with Treasury

($ In Thousands)                                                     2011                2010
    Fund Balance
    Total Special Funds                                     $        227,170    $        195,962

Status of Fund Balance with Treasury

Unobligated Balance – Unavailable                                185,626,591         164,263,741
Obligated Balance not yet Disbursed                                  522,847             366,924
Non-Budgetary FBWT Accounts                                     (185,922,268)       (164,434,703)
Total                                                       $        227,170    $        195,962


The Fund Balance with Treasury (FBWT) increased $31.2 million (16%) due to the increase in
the amount held back to cover the final month-end disbursements. This monthly holdback is
calculated based on the current month to date disbursements versus the average monthly
disbursement over the last 12 months. During FY 2011, final payments reported ranged from $0
million to $229.2 million.

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support
the FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily
consists of unobligated and obligated balances. The balances reflect the budgetary authority
remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations. The



                                                25
                                                       Notes to the Principal Statements

unavailable balance, which consists primarily of funds that are temporarily precluded from
obligation by law, is invested in U.S. Treasury securities. Unobligated Balances for the
MERHCF are restricted for use by the public law that established the fund and become available
without further congressional action.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and
services not received and those received but not paid. The MERHCF balance represents
amounts payable to the Defense Logistics Agency (DLA) for purchases of pharmaceuticals, to
private contractors waiting for DLA to replenish the pharmaceutical supply, and to private health
care providers.

The MERHCF Non-Budgetary FBWT Account balance represents investments in U.S. Treasury
securities that are reflected in the MERHCF’s budgetary resources, but are not part of the FBWT.


Note 3. Investments

 ($ In Thousands)                                        2011
                                                       Amortized
                                      Amortization                    Investments,   Market Value
                           Cost                       (Premium) /
                                        Method                            Net         Disclosure
                                                        Discount

 Intragovernmental
    Securities
    Nonmarketable,                      Effective
      Market-Based    $ 191,058,659      Interest    $ (5,136,390)   $ 185,922,269 $ 221,620,502
Subtotal                191,058,659                    (5,136,390)     185,922,269   221,620,502
Interest Receivable       1,903,793                             0        1,903,793     1,903,793
Total Investments     $ 192,962,452                  $ (5,136,390)   $ 187,826,062 $ 223,524,295



($ In Thousands)                                        2010
                                                      Amortized
                                      Amortization                   Investments,    Market Value
                          Cost                       (Premium) /
                                        Method                           Net          Disclosure
                                                       Discount

 Intragovernmental
    Securities
    Nonmarketable,                      Effective
      Market-Based    $ 168,568,946      Interest    $ (4,134,242)   $ 164,434,704 $ 182,212,125
Subtotal                168,568,946                    (4,134,242)     164,434,704   182,212,125
Interest Receivable       1,768,819                             0        1,768,819     1,768,819
Total Investments     $ 170,337,765                  $ (4,134,242)   $ 166,203,523 $ 183,980,944

Total Intragovernmental Securities, Net Investments, for MERHCF increased $21.6 billion
(13%). This increase is primarily the result of investing annual contributions from the U.S.


                                                26
                                                        Notes to the Principal Statements

Treasury and the Uniformed Services (Army, Navy, Air Force, Marine Corps, U.S. Public Health
Service, National Oceanic and Atmospheric Administration, and U.S. Coast Guard) net of
benefits paid. Investment of these funds has a cumulative effect with an expectation that
invested balances will continue growing to cover future benefits. The MERHCF purchased
$18.7 billion in long-term securities during FY 2011.

The federal government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash generated from earmarked funds is deposited in the
U.S. Treasury, which uses the cash for general government purposes. The U.S. Treasury
securities are issued to the earmarked funds as evidence of its receipts and are an asset to the
Medicare-Eligible Retiree Health Care Fund (MERHCF) and a liability to the U.S. Treasury.
Since MERHCF and the U.S. Treasury are both parts of the federal government, these assets and
liabilities offset each other from the standpoint of the federal government as a whole. For this
reason, they do not represent an asset or a liability in the U.S. governmentwide financial
statements.

The U.S. Treasury securities provide MERHCF with authority to draw upon the U.S. Treasury to
make future benefit payments or other expenditures. When MERHCF requires redemption of
these securities to make expenditures, the federal government finances the securities out of
accumulated cash balances, by raising taxes or other receipts, borrowing from the public or
repaying less debt, or curtailing other expenditures. The federal government uses the same
method to finance all other expenditures.

The MERHCF purchases and redeems nonmarketable, market-based U.S. Treasury securities
that fluctuate in tandem with the current selling price of the equivalent marketable securities on
the open market. The MERHCF purchases securities with the intent to hold until maturity;
therefore, balances are not adjusted to market value.

At the semiannual meetings, the Department of Defense Investment Board approves the strategy
for the type of securities purchased by MERHCF. These securities may include U.S. Treasury
bills, notes, bonds, inflation-protected securities, and overnight certificates. The U.S. Treasury
bills are short-term securities with maturities of 1 year or less and are purchased at a discount.
The U.S. Treasury notes have maturities of at least 1 year, but not more than 10 years, and are
purchased at either a discount or premium. The U.S. Treasury bonds are long-term securities
with maturities of 10 years or more and are purchased at either a discount or premium. The U.S.
Treasury Inflation-Protected Securities (TIPS) provide protection against inflation and are
purchased at either a discount or premium. The TIPS principal increases with inflation and
decreases with deflation, as measured by the Consumer Price Index. When TIPS mature, the
U.S. Treasury pays the adjusted principal or original principal, whichever is greater. The TIPS
amount includes inflation compensation as well as the par value of the securities. Overnight
securities are short-term securities, purchased at face value, that mature the next business day
and earn interest at the daily Federal Reserve repurchase agreement rate.




                                               27
                                                                Notes to the Principal Statements

The cost of the U.S. Treasury Securities are displayed in the following table.

                              COST FY 2011                                    COST FY 2010
                               (in thousands)                                  (in thousands)
          Bills                $                   0        Bills               $               0
          Notes                          3,986,875          Notes                     8,170,204
          Bonds                         10,515,160          Bonds                     8,191,910
          TIPS                         170,645,069          TIPS                    146,372,105
          Overnights                     5,911,555          Overnights                5,834,727
          Total Cost               $   191,058,659          Total Cost          $   168,568,946

Note 4. Accounts Receivable

 ($ In Thousands)                                                            2011
                                                                         Allowance For
                                                Gross Amount                                Accounts
                                                                           Estimated
                                                    Due                                   Receivable, Net
                                                                         Uncollectibles

 Nonfederal Receivables (From the Public)      $              524,737 $         (26,755) $          497,982
 Total Accounts Receivable                     $              524,737 $         (26,755) $          497,982


 ($ In Thousands)                                                            2010
                                                                         Allowance For
                                                Gross Amount                                Accounts
                                                                           Estimated
                                                    Due                                   Receivable, Net
                                                                         Uncollectibles

 Nonfederal Receivables (From the Public)      $              623,303 $        (60,379) $           562,924
 Total Accounts Receivable                     $              623,303 $        (60,379) $           562,924

Accounts Receivable, Public, decreased $64.9 million (12%) primarily due to receiving timelier
reimbursements.

The accounts receivable represent the MERHCF’s claim for payment from other entities. The
MERHCF only recognizes an allowance for uncollectible amounts from the public. Claims with
other federal agencies are resolved in accordance with the Intragovernmental Business Rules.

As of September 30, 2011, the total net receivables, recorded for the pharmaceutical SDP were
$317.8 million and for the ADP were $171.6 . This program resulted from the implementation
of the Federal Ceiling Program for the TRICARE Retail Pharmacy Program as required by the
FY 2008 National Defense Authorization Act, Section 703. See Note 7, Commitments and
Contingencies for further information and disclosures.




                                                       28
                                                          Notes to the Principal Statements

Note 5. Liabilities Not Covered by Budgetary Resources

 ($ In Thousands)                                                      2011            2010
 Nonfederal Liabilities
 Military Retirement Benefits Liabilities (Note 8)              $ 348,753,354 $ 409,407,569
 Total Nonfederal Liabilities                                     348,753,354   409,407,569

 Total Liabilities Not Covered by Budgetary Resources              348,753,354     409,407,569
 Total Liabilities Covered by Budgetary Resources                  186,049,226     164,567,433
 Total Liabilities                                              $ 534,802,580 $ 573,975,002

Total Liabilities Not Covered by Budgetary Resources decreased $60.7 billion (15%). This
change is primarily attributable to a decrease in the actuarial liability of $39.3 billion and an
increase of $21.6 billion in investments available to pay benefits. See Note 3, Investments, and
Note 8, Military Retirement and Other Federal Employment Benefits, for additional information
about these changes.

The MERHCF Liabilities Not Covered by Budgetary Resources represent the portion of the
actuarial liability for health benefits for which current assets are not yet available. Refer to
Note 8, Military Retirement and Other Federal Employment Benefits, for additional details and
disclosures.


Note 6. Accounts Payable

 ($ In Thousands)                                                       2010            2009
 Intragovernmental Payables                                        $   101,275     $    91,603
 Nonfederal Payables (to the Public)                                   321,360         212,089
 Total Accounts Payable                                            $   422,635     $   303,692

Intragovernmental Payables increased $9.7 million (11%) primarily due to increased Mail Order
Pharmacy Program activity.

Nonfederal Payables (to the Public) increased $109.3 million (52%). This change is primarily
due to an $81.5 million increase in TRICARE Mail Order Pharmacy Program costs. This is the
result of a combination of higher utilization by the DoD Medicare-eligible beneficiaries and an
increase in pharmaceutical expenses.

Accounts Payable include amounts owed to federal and nonfederal entities for goods and
services received by MERHCF.

The MERHCF balance represents amounts payable to the Defense Logistics Agency (DLA) for
purchases of pharmaceuticals, to private contractors waiting for DLA to replenish the pharmaceutical
supply, and to private health care providers.




                                                     29
                                                       Notes to the Principal Statements

Note 7. Commitments and Contingencies

The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by
SFFAS No. 12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a
contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
events occur or fail to occur.

Section 703 of the National Defense Authorization Act for Fiscal Year 2008, codified as
10 U.S.C. 1074g(f) provides:

(f) Procurement of pharmaceuticals by TRICARE Retail Pharmacy Program. With respect to any
prescription filled on or after the date of the enactment of the National Defense Authorization
Act for Fiscal Year 2008 [January 28, 2008], the TRICARE Retail Pharmacy Program shall be
treated as an element of the Department of Defense for purposes of the procurement of drugs by
Federal agencies under section 8126 of title 38 to the extent necessary to ensure that
pharmaceuticals paid for by the Department of Defense that are provided by pharmacies under
the program to eligible covered beneficiaries under this section are subject to the pricing
standards in such section 8126. The effect of this law is that for all prescriptions filled on or
after January 28, 2008, all covered TRICARE Retail Pharmacy Network drug prescriptions are
subject to Federal Ceiling Prices (FCPs).

On October 15, 2010, DoD completed reconsideration of the 2009 Final Rule and published its
Final Rule at 75 Federal Register 63,383. The DoD elected to retain the requirement that had
been challenged by manufacturers: that pharmaceutical manufacturers refund any amounts
charged to DoD that are in excess of the Federal Ceiling Prices. The Coalition for Common
Sense in Government Procurement appealed to the District Court for the District of Columbia,
requesting an injunction. This appeal was pending in FY 2010 and finalized in FY 2011. The
court did not grant an injunction.

MERHCF has begun the process to compute amounts potentially owed for the period of January
28, 2008 and June 30, 2009, however much uncertainty remains. The TMA OGC will need to
review the amounts calculated as owed in conjunction with weighing the legal merits of
manufacturer waiver compromises and/or other amounts in dispute. As such, the MERHCF
cannot determine a reasonable estimate for the amounts owed as of September 30, 2011. In light
of the uncertainty regarding the amount MERHCF will issue demand letters for, and the likely
additional litigation that may result in response to billings for the period in question,
Management has concluded the requirements for recognition of exchange transactions, as
defined in SFFAS 7, “Accounting for Revenue and Other Financing Sources and Concepts for
Reconciling,” have not been met. Therefore, a gain contingency exists as it relates to Accounts
Receivable relating to the TRICARE Retail Pharmacy Program for prescriptions filled between
January 28, 2008 and June 30, 2009.

Additional details relating to the litigation as well as the uncertainty surrounding the amount
owed to the MERHCF are provided below.



                                               30
                                                         Notes to the Principal Statements

•     The Final Rules also incorporated the regulatory overpayment recovery procedures of
      32 C.F.R. §199.11 based upon the Federal Claims Collection Act and related laws for
      waiver/compromise of overpayment refunds for all such prescriptions. The applicability of
      §199.11 brings with it a procedure for a manufacturer to request waiver/compromise of a
      contested refund amount due.

•     Resolution of waiver/compromise requests had been in abeyance pending the 2010
      regulatory reconsideration. TMA is in the process of calculating refunds for CY 2008 for
      covered drug prescriptions purchased by TRICARE beneficiaries on or after
      January 28, 2008.

•     Refund calculations must be run sequentially since the Department of Veteran Affairs (DVA)
      Pricing File (the source prescribed by law for the DoD Master Pricing File) is amended
      annually each November with changes, additions, deletions, and transfers submitted by the
      pharmaceutical manufacturers of their Non-Federal Average Manufacturer Price (Non-
      FAMP). After calculation of the refund amounts for the individual quarters for CY 2008,
      TMA will proceed with calculations for the first two quarters of CY 2009.

•     Upon receipt of final calculations, TMA will issue demand letters for remaining balances and
      will commence with resolution of all submitted waiver/compromise requests.

Note 8. Military Retirement Benefit Liabilities

($ In Thousands)                                             FY 2011

                                               Assumed             (Less: Assets
      Major Program          Present Value   Interest Rate        Available to Pay       Unfunded
        Activities            of Benefits         (%)                Benefits            Liabilities

    Medicare-Eligible
    Retiree Benefits     $     533,667,660            5.00% $          (184,914,306) $   348,753,354
    Benefits Due and
        Payable                    712,285                                 (712,285)               0
    Total                $     534,379,945                    $        (185,626,591) $   348,753,354


($ In Thousands)                                             FY 2010

                                               Assumed             (Less: Assets
      Major Program          Present Value   Interest Rate        Available to Pay       Unfunded
        Activities            of Benefits         (%)                Benefits            Liabilities

    Medicare-Eligible
    Retiree Benefits     $     572,995,159            5.00% $          (163,587,590) $   409,407,569
    Benefits Due and
        Payable                    676,151                                (676,151)                    0
    Total                $     573,671,310                    $        (164,263,741) $   409,407,569



                                                 31
                                                           Notes to the Principal Statements

Change in Actuarial Liability

 ($ In Thousands)                                FY 2011                           FY 2010
 Beginning Actuarial Liability             $   572,995,159               $     509,466,419
 Normal Cost Liability                           12,127,505                     10,583,746
 Plan Amendment Liability                       (12,807,919)
 Benefit Outlays                                  (9,455,706)                     (8,633,903)
 Interest Cost                                   29,022,624                      29,658,129
 Actuarial (gains)/losses due to changes
 in experience                                  (8,889,969)                       3,323,196
 Actuarial (gains)/losses due to changes
 in trend assumptions                          (68,961,084)                     (90,883,699)
 Actuarial (gains)/losses due to other
 factors                                        19,637,050                     119,481,271
 Ending Actuarial Liability                $   533,667,660               $     572,995,159
 Change in Actuarial Liability             $   (39,327,499)              $      63,528,740

The Total Military and Retirement and Other Federal Employment Benefits Liability decreased
$39.3 billion (7%). This resulted from a decrease of $49.3 billion due to changes in key
assumptions; a decrease of $12.8 in the Plan Amendment Liability (beneficiary cost share
effective October 1, 2011) and a decrease of $8.9 billion due to actual experience being different
from what was assumed (demographic and claims data) offset by an expected increase of
$31.7 billion due to interest and normal costs less benefit outlays.

The MERHCF accumulates funds to pay for health care programs for DoD and other Uniformed
Services Medicare-eligible retirees and their Medicare-eligible dependents or survivors.

The two tables on page 31 display two distinct types of liabilities related to Military Retirement
and Other Federal Employment Benefits. These tables display on the line entitled “Military
Medicare-Eligible Retiree Benefits” the actuarial liability for health care benefits that are not yet
incurred. They also display on the line entitled “Other” the incurred-but-not-reported reserve
amount that represents an estimate of benefits already incurred but not yet reported to DoD.

Actuarial Cost Method

As dictated by law, MERHCF is funded using the Aggregate Entry-Age Normal Cost method.
This is a method whereby projected retiree medical plan costs are spread over the projected
service of a new entrant cohort.

Projected Revenues

The MERHCF receives projected revenues from three sources: interest earnings on MERHCF
assets, annual Uniformed Services normal cost contributions, and an annual U.S. Treasury
contribution. The normal cost contributions are paid annually at the beginning of the fiscal year
by the U.S. Treasury from amounts appropriated to the Military Services and are calculated at
the approved full-time and part-time per capita rates times the budgeted full-time and part-time



                                                 32
                                                         Notes to the Principal Statements

force strengths, respectively. The contribution from the U.S. Treasury is also paid into
MERHCF at the beginning of each fiscal year and represents the amortization of the unfunded
liability for service performed before October 1, 2002, as well as the amortization of subsequent
actuarial gains and losses. The DoD Medicare-Eligible Retiree Health Care Board of Actuaries
(the Board) approves the per capita normal cost rates and the U.S. Treasury contribution, and the
Secretary of Defense directs the Secretary of Treasury to make the payments.

Assumptions

The Board sets the long-term assumptions for each valuation performed for funding purposes.
Prior to FY 2010, the same long term assumptions were used for the financial-statement
valuations. The distinction between the two different valuations is discussed further below. The
long-term assumptions for the FY 2010 financial-statement valuation included a 5.0% discount
rate and medical trend rates that were developed using a 2.4% inflation assumption. For the FY
2011 financial-statement valuation, the long-term assumptions include a 4.9% discount rate and
medical trend rates that were developed using a 2.5% inflation assumption. The change in the
long-term assumptions is due to compliance with the Statement of Federal Financial Accounting
Standards 33 (SFFAS 33). The standard is discussed further below. Other assumptions used to
calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. Because of reporting deadlines, the current year actuarial liability is rolled forward
from the prior year valuation results as reported in the DoD Office of the Actuary’s (OACT’s)
‘Valuation of the Medicare-Eligible Retiree Health Care Fund’ using accepted actuarial methods.
Adjustments are made as necessary to put liabilities on a financial-statement basis. In the
selection of the valuation date, SFFAS 33 allows for the roll-forward of actuarial liabilities from
the prior year valuation results. In calculating the FY 2011 roll-forward amount, the following
assumptions were used:

          Discount Rate                              4.9%
          Inflation                                  2.5%

          Medical Trend                              FY 2010 - FY 2011       Ultimate Rate 2035
          Medicare Inpatient (Direct Care)           3.38%                         5.25%
          Medicare Inpatient (Purchased Care)        4.38%                         5.25%
          Medicare Outpatient (Direct Care)          3.26%                         5.25%
          Medicare Outpatient (Purchased Care)       4.26%                         5.25%
          Medicare Prescriptions (Direct Care)       2.00%                         5.25%
          Medicare Prescriptions (Purchased Care)    5.82%                         5.25%
          Medicare USFHP (Purchased Care)            5.67%                         5.25%

For purposes of the Fund’s financial reporting, this roll-forward process is applied annually.

The medical cost trend rate assumptions have a significant effect on the amounts reported. For
example, if each of the assumed trend rates had increased by one percentage point, the actuarial
liability benefits would have increased 29.0%, or approximately $154.1 billion.

Contributions to the MERHCF are calculated to maintain the Fund on an actuarially sound basis.
This means there will be sufficient funds to make all benefit payments to eligible recipients each



                                                33
                                                         Notes to the Principal Statements

year, and the Fund balance is projected to eventually equal the actuarial liability; i.e., all
unfunded liabilities are liquidated. In order to accomplish this, normal costs are calculated to
fully fund the current year projected liability for active duty members and reservists. In addition,
amortization payments are calculated to fund liabilities that were present at plan inception (initial
unfunded liability) and any emerging actuarial gains or losses.

The SFFAS 33, as published on October 14, 2008, by the Federal Accounting Standards
Advisory Board (FASAB), requires the use of a yield curve based on marketable U.S. Treasury
securities to determine the discount rates used to calculate actuarial liabilities for federal
financial statements. Historical experience is the basis for expectations about future trends in
marketable U.S. Treasury securities.

SFFAS 33 is effective for periods beginning after September 30, 2009, and applies to
information provided in general purpose federal financial statements. It does not affect statutory
or other special-purpose reports, such as pension or Other Retirement Benefit reports. SFFAS 33
requires a minimum of five periodic rates for the yield curve input and a consistency in the
number of historical rates used from period to period. It permits the use of a single average
discount rate if the resulting present value is not materially different from what would be
obtained using the yield curve.

DoD OACT annually performs two MERHCF valuations. The primary one is for funding
purposes—this valuation is governed by Chapter 56 of Title 10 U.S.C. and must use methods and
assumptions approved by the Board. The other valuation is for financial statement purposes and
is governed by FASAB standards. For the September 30, 2011, financial-statement valuation,
OACT used quarterly zero coupon Treasury spot rates (as published by the Office of Thrift
Supervision) from June 30, 2001, through March 31, 2011, (40 quarterly interest rates) to
determine an SFFAS 33 equivalent discount rate of 4.9%. In the summer of 2011, the Board
approved a discount rate of 5.75% for the September 30, 2010, funding valuation, which differs
from the SFFAS equivalent rate by 85 basis points.

SFFAS 33 requires that the discount rate, underlying inflation rates, and other economic
assumptions should be consistent with one another. A change in the discount rate may cause
other assumptions to change as well. For the September 30, 2011, financial-statement valuation,
implementation of the SFFAS 33 single equivalent discount rate required OACT to change the
long-term inflation and medical trend rate assumptions to be consistent with the underlying
Treasury spot rates used in the valuation. Using the SFFAS 33 long-term economic assumptions
increases the MERHCF actuarial liability by 14.7%.

Plan Amendment

The liability also reflects a plan amendment. The benefit change, effective October 1, 2011, is
the result of a regulation approved by the DoD Pharmacy and Therapeutics Committee, and
includes changes to Retail and Mail Order pharmacy co-payments (the beneficiary cost-share).
The effect of this benefit change on the actuarial liability is ($12.8) billion.




                                                 34
                                                       Notes to the Principal Statements

FY 2011 Military Service and Other Uniformed Services Actuarial Liability

The MERHCF liability includes Medicare liabilities for all Uniformed Services. The
approximate breakout of the September 30, 2011, Medicare liability ($ in thousands) for all
Uniformed Services is as follows:

             DoD                                                  $ 521,780,560
             Coast Guard                                             10,666,248
             Public Health Service                                    1,143,997
             National Oceanic and Atmospheric Administration             76,855
             Total                                                $ 533,667,660

FY 2011 Military Service and Other Uniformed Service Contributions

The FY 2011 Military Service and other Uniformed Service contributions to MERHCF ($ in
thousands) were as follows:

             DoD                                                  $ 11,010,191
             Coast Guard                                               265,321
             Public Health Service                                      38,089
             National Oceanic and Atmospheric Administration             1,832
             Total                                                $ 11,315,433

Market Value of MERHCF’s Securities

The market value of MERHCF’s nonmarketable, market-based securities as of
September 30, 2011, totaled $223.5 billion. This amount is also reported on Note 3, Investments
and Related Interest.


Note 9. Disclosures Related to the Statements of Net Cost


             ($ In Thousands)                          2011                          2010
 Gross Costs
  Intragovernmental Costs                      $    2,772,992                $     2,400,305
  Public Costs                                      6,047,051                      5,650,390
  Total Costs                                       8,820,043                      8,050,695
 Earned Revenue
  Intragovernmental Revenue                        (30,253,771)                   (26,420,118)
  Total Revenue                                    (30,253,771)                   (26,420,118)
 Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits        (39,327,499)                     63,528,740
 Net Cost of Operations                        $ (60,761,227)                $    45,159,317




                                              35
                                                      Notes to the Principal Statements

The Net Cost of Operations decreased $105.9 billion (235%) primarily due to $102.8 billion
decrease in the annual change to the actuarial liability. For FY 2011, the actuarial liability
decreased $39.3 billion; conversely, the FY 2010 actuarial liability increased $63.5 billion.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
federal government supported by appropriations or other means. The intent of the SNC is to
provide gross and net cost information related to the amount of output or outcome for a given
program (i.e. MERHCF) or organization administered by a responsible reporting entity.

Intragovernmental costs and revenue are related to transactions made between two reporting
entities within the federal government. Public costs and revenues are exchange transactions
made between the reporting entity and a nonfederal entity. Public costs also include actuarial
gains and losses on assumption changes for other retirement benefits. Pursuant to SFFAS No.
33, “Pensions, Other Retirement Benefits, and Other Postemployment Benefits: Reporting the
Gains and Losses from Changes in Assumptions and Selecting Discount Rates and Valuation
Dates”, effective for fiscal years after September 30, 2009, actuarial gains and losses are
presented on Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
Benefits line on the Statement of Net Costs.

The following table displays the intragovernmental revenue.

                     Intragovernmental Earned Revenue for Program Costs

 ($ in Thousands)                                                    FY 2011        FY 2010
 1. Uniformed Services Contributions                               $11,315,433    $11,095,573
 2. U.S. Treasury Annual Unfunded Liability Payment                   9,785000     10,006,000
 3. Interest on Investments                                          9,153,338      5,318,545
 4. Total Intragovernmental Revenue                                $30,253,771    $26,420,118

Line 1. Uniformed Service Contributions represent the amount contributed by Treasury on
behalf of the Uniformed Services at the beginning of each fiscal year. The contribution rates,
which are determined by the DoD Retirement Board of Actuaries, are based on DoD Retirement
Board of Actuaries approved per capita normal cost rates and expected average strengths for the
Uniformed Services.

Line 2. Annual Treasury Unfunded Liability Payment. This payment represents the
amortization of the unfunded liability for service performed before October 1, 2002, as well as
the amortization of subsequent actuarial gains and losses.

Line 3. Interest on Investments represents the interest income received by the MERHCF for
FYs 2011 and 2010.




                                               36
                                                        Notes to the Principal Statements

Note 10. Disclosure Related to the Statement of Changes in Net Position

There was a difference of $30.1 billion between Appropriations Received on the Statement of
Changes in Net Position (SCNP) and Appropriations Received on the Statement of Budgetary
Resources (SBR). The MERHCF records contributions as revenue on the SCNP, while
contributions are recorded as Appropriations on the SBR. This is in accordance with Office of
Management and Budget reporting requirements. Refer to Note 11, Disclosures Related to the
Statement of Budgetary Resources, for additional details.


Note 11. Disclosures Related to the Statement of Budgetary Resources

 ($ in Thousands)                                                        2011               2010
 Net Amount of Budgetary Resources Obligated for Undelivered
 Orders at the End of the Period                                     $ 100,212          $   63,232


The Medicare-Eligible Retiree Health Care Fund (MERHCF) reported $8.8 billion in direct,
Category B obligations. Category B obligations are apportioned funds that relate to a specific
project or program.

Public Law 106-398, The Floyd D. Spence National Defense Authorization Act for Fiscal
Year 2001, provided and authorized MERHCF a permanent, indefinite appropriation.

The MERHCF’s unobligated balances of budget authority represent the portion of special fund
receipts collected in the current fiscal year (1) that exceed the amount needed to pay benefits or
other valid obligations and (2) that exceed the receipts temporarily precluded from obligation by
law. The receipts, however, are assets of MERHCF and are available for obligation as needed in
the future.

There was a difference of $30.1 billion between appropriations on the Statement of Changes in
Net Position (SCNP) and appropriations on the SBR. The MERHCF records contributions as
revenue on the SCNP, while contributions are recorded as Appropriations on the SBR. This is in
accordance with Office of Management and Budget reporting requirements.




                                               37
                                                              Notes to the Principal Statements

Note 12. Reconciliation of Net Cost of Operations to Budget

 ($ in Thousands)                                                           2011               2010
 Resources Used to Finance Activities:
 Budgetary Resources Obligated—Obligations incurred                  $     8,755,948    $     8,622,841
  Less: Offsetting receipts (-)                                          (18,803,364)       (15,120,415)
  Net obligations                                                        (10,047,416)        (6,497,574)

 Total resources used to finance activities                              (10,047,416)        (6,497,574)

 Resources Used to Finance Items not Part of the Net Cost of
  Operations:
 Change in budgetary resources obligated for goods, services and
  benefits ordered but not yet provided:
  Undelivered Orders (-)                                                     (36,979)          (12,935)
  Resources that fund expenses recognized in prior Periods (-)           (39,327,500)         (144,215)
  Budgetary offsetting collections and receipts that do not affect          (134,974)                0
    Net Cost of Operations

 Total resources used to finance items not part of the Net Cost of       (39,499,453)         (157,150)
  Operations

 Total resources used to finance the Net Cost of Operations              (49,546,869)        (6,654,724)

  Components Requiring or Generating Resources in Future
     Period Other (+/-)                                                       36,134          63,528,740
 Components not Requiring or Generating Resources
   Trust Fund Exchange Revenue                                           (11,315,433)       (11,299,702)
   Other                                                                      64,941           (414,997)

 Total components of Net Cost of Operations that will not
  Require or Generate Resources in the current period                    (11,214,358)         51,814,041

 Net Cost of Operations                                              $ (60,761,227)     $    45,159,317

Components Requiring or Generating Resources in Future Period – Other displays the change in
the FY 2011 the incurred-but-not-reported (IBNR) reserve amounts.           The IBNR amount
represents an estimate of medical benefits already incurred but not yet reported to the
Department of Defense. Refer to Note 17, Military Retirement and Other Federal Employment
Benefits. For additional details and disclaimers regarding FY 2011 changes.

Components not Requiring or Generating Resources – Other displays the changes in accounts
receivables from FY 2010 to FY 2011. These changes represent refunds receivable for (1)
amounts due from drug manufacturers as required by the Federal Ceiling Price program, (2)
duplicate or other erroneous MERHCF payments made to contractors for care of the
beneficiaries, and (3) copayments from MERHCF beneficiaries for mail order prescriptions.
These refunds receivable are recorded as an offset to expenses.




                                                   38
                                                            Notes to the Principal Statements

Note 13. Benefit Program Expense

                                      Benefit Program Expense

    ($ in Thousands)                                                    FY 2011            FY 2010
1   Service Cost                                                   $    12,127,505    $    10,583,746
2   Plan Amendment Liability                                           (12,807,919)
3   Period Interest on the Benefit Liability                            29,022,624         29,658,129
4   Prior (or Past) Service Cost                                                 0                  0
5   Period Actuarial (Gains) or Losses                                  10,747,081        122,804,467
6   (Gains)/Losses Due to Changes in Medical Trend Assumption          (68,961,084)       (90,883,699)
7   Total                                                          $   (29,871,793)   $    72,162,642

The above table displays the benefit program expense amounts that are considered public costs
for the MERHCF.

The Benefit Program Expenses (BPEs) provide components of the change in the actuarial
liability from September 30, 2010, to September 30, 2011. The September 30, 2011, actuarial
liability is calculated using the components of BPEs as well as the expected benefit payments
during the fiscal year. See Note 8, Military Retirement Benefit Liabilities, for further details
about the change in the actuarial liability. The September 30, 2011, actuarial liability is equal to
the September 30, 2010, liability plus the total BPEs minus the expected benefit payments. The
BPE includes normal (or service) cost, plan amendment liability, interest cost, and gains and
losses. It measures the change in the actuarial liability from one year to the next (excluding the
impact of benefit payments).

In FY 2011, the Period Actuarial (Gains) or Losses component of BPE (line 5) contributed a net
gain (liability decrease), reflecting the net of various gains and losses resulting from experience
and changes in assumptions. The (Gains)/Losses Due to Changes in Medical Trend Assumption
component of BPE (line 6) produced a gain in FY 2011. Each year, the assumption changes are
approved by the MERHCF Board of Actuaries.




                                                   39
                                                        Notes to the Principal Statements

Note 14. Earmarked Funds

                                                                    2011               2010
 BALANCE SHEETS
 ASSETS
 Fund balance with Treasury                                  $       227,170    $       195,962
 Investments                                                     187,826,062        166,203,523
 Accounts and Interest Receivable                                    497,982            562,924
 Total Assets                                                $   188,551,214    $   166,962,409
 LIABILITIES and NET POSITION
 Military Retirement Benefits and Other Federal Employment
 Benefits                                                    $   534,379,945    $   573,671,310
 Other Liabilities                                                   422,635            303,692
 Total Liabilities                                           $   534,802,580    $   573,975,002

 Cumulative Results of Operations                              (346,251,366) (407,012,593)
 Total Liabilities and Net Position                          $ 188,551,214 $ 166,962,409

 STATEMENTS OF NET COST
 Program Costs                                               $   (30,507,456) $      71,579,435
 Less Earned Revenue                                             (30,253,771)       (26,420,118)
 Net Program Costs                                           $   (60,761,227) $      45,159,317
 Net Cost of Operations                                      $   (60,761,227) $      45,159,317

 STATEMENTS OF CHANGES IN NET POSITION
 Net Position Beginning of the Period                        $ (407,012,593) $ (361,576,518)
 Net Cost of Operations                                          (60,761,227)        45,159,317
 Other Financing Sources                                                   0             (276,758)
 Change in Net Position                                      $    60,761,227 $        (45,436,075)
 Net Position Beginning of the Period                        $   (346,251,366) $     (407,012,593)

Public Law 106-398, The Floyd D. Spence National Defense Authorization Act for Fiscal
Year 2001, authorized the establishment of the MERHCF. The MERHCF accumulates funds to
finance, on an actuarially sound basis, liabilities of the DoD and the Uniformed Services health
care programs for specific Medicare-eligible beneficiaries. The MERHCF receives its funding
as an earmarked special fund and uses these resources to execute its mission and report on
resource usage.

The primary financing sources for MERHCF are (1) an annual unfunded actuarial liability
payment from the U.S. Treasury, (2) annual contributions from the Military Services and other
Uniformed Services (U.S. Coast Guard, National Oceanic and Atmospheric Administration, and
U.S. Public Health), and (3) interest earned on investments. Using methods and assumptions
approved by the DoD Board of Actuaries, the DoD Office of the Actuary calculates the annual


                                                40
                                                         Notes to the Principal Statements

unfunded liability amount, the annual Military Services payment amounts, and the rates for the
other Uniformed Services. These financing sources are the result of intragovernmental flows.
Contributions in excess of the projected current year health care benefits are invested. These
investments and associated revenue are used to cover future liabilities of MERHCF.


Note 15. Other Disclosures

The actuarial liability for Medicare-eligible retiree benefits as of September 30, 2011 and 2010,
includes approximately $73.6 billion (14% of total) and $73.2 billion (13% of total),
respectively, of amounts reflecting the actuarial present value of the projected direct-care costs of
benefits to be provided by the MTFs to eligible participants in the MERHCF. Additionally, the
reported amounts of program revenues and cost for the year ended September 30, 2011, include
approximately $2.8 billion and $1.8 billion, respectively, and for the year ended September 30,
2010, include approximately $2.9 billion and $1.7 billion, respectively, of amounts related to the
direct-care costs. Such MTF-related amounts of direct-care costs are estimated by the Fund’s
actuaries using data extracted from various Military Service-specific financial, personnel and
workload systems within DoD. With respect to extracted data, the MTFs do not have OMB
Circular A-127, compliant, transaction-based accounting systems and, therefore, cannot report
the costs of an individual patient’s care.




                                                 41
Other Accompanying Information




              42
                                                             Other Accompanying Information



Exhibit 1--Actuarial Status Information

                                     SEPTEMBER 30, 2011 and 2010

                                              ($ In Thousands)


                                                                    September 30, 2011       September 30, 2010
 1 Present value of future benefits

     a.   Current inactives                                               $328,683,472             $348,080,024
     b.   Active duty personnel ¹                                         $170,612,841             $182,308,227
     c.   Nonretired reservists                                           $122,346,807             $139,775,437
     d.   Total                                                           $621,643,120             $670,163,688

 2 Present value of future normal
   cost contributions                                                     $(87,975,460)            $(97,168,529)

 3 Actuarial accrued liability                                            $533,667,660             $572,995,159

 4 Assets 2 (funded accrued liability)                                    $184,914,306             $163,587,590

 5 Unfunded accrued liability ³                                           $348,753.354             $409,407,569



________________________________

 1
          The future benefits of active duty personnel who are projected to retire as reservists are counted on
          line 1c.

 2
          The assets available to pay benefits are determined using the amortized cost method (book value) of
          valuation.

 3
          The unfunded accrued liability does not include $712.3 million and $676.2.million for the estimated
          incurred-but-not-reported liabilities as of September 30, 2011 and 2010, respectively, as presented in
          the Balance Sheet as “Benefits Due and Payable” and as discussed in Note 8, “Military Retirement
          Benefit Liabilities.”




                                                     43
                                                      Other Accompanying Information


Exhibit 2--Summary of Financial Statement Audit and Management Assurances

                                    SEPTEMBER 30, 2011

Agencies are required to provide certain assurances as to the status and effectiveness of the
internal controls and financial management systems that support the preparation of the financial
statements. In the context of the MERHCF Management Discussion and Analysis, DoD, and not
MERHCF, represents the legislative definition of an Agency. Beginning with FY 2006, as
directed in OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix
A, Internal Control Over Financial Reporting, the 24 CFO Act agencies (includes DoD), are
required to provide a separate assessment of the effectiveness of the internal controls over
financial reporting as a subset of the overall Federal Managers Financial Integrity Act (FMFIA)
assurance statement. OUSD(C) issued guidelines to the leadership of DoD Components,
including MERHCF, as to how to support this DoD reporting requirement. TMA management
complied with the required guidelines for MERHCF.

TMA includes auditor identified weaknesses in its annual assessment of internal controls from
the prior year audit. Due to the timing of TMA’s assessment, which reported during June 2011,
TMA’s assessment may differ from the auditor’s reported weaknesses for the current FY, which
are reported as of September 2011. In its FY 2011 assessments, TMA management assessed
that, except for direct care related material weaknesses and one material weakness associated
with the retail pharmacy refund program, the MERCHF Financial Statement Reporting Entity
(FSRE) has effective internal controls to support effective and efficient programmatic operations,
reliable financial reporting, and is in process of implementing corrective actions to become fully
compliant with applicable laws and regulations (FMFIA § 2). MERHCF FSRE cannot achieve
compliance with (FMFIA § 4) for direct care until the Services have implemented financial
systems that comply with (FMFIA § 4). The OUSD (C ) published Financial Improvement and
Audit Readiness Status Report as of June 2011, indicates a FY 2017 timeline for the Services to
achieve (FMFIA § 4) compliance. Compliance with (FMFIA § 2) for purchased care should be
achieved in FY 2013.

Except for the two direct care-related material weaknesses and one purchased care-related
material weakness above, and documented in TMA’s Annual Statement Required Under the
FMFIA, dated June 29, 2011, and the above referenced Service-related FMFIA § 4 weakness ,
the MERHCF has effective internal controls over financial reporting.

The Status of FY 2011 Audit Findings and Actions Taken tables include a summary of material
weakness (FMFIA § 2) and non-conformances (FMFIA § 4), and summary of corrective actions
to resolve the material weaknesses and non-conformances.




                                               44
                                                                 Other Accompanying Information

Table 1.
Summary of Financial Statement Audit

Audit Opinion                                                                     Qualified
Restatement                                                                         No

Material Weaknesses                                     Beginning       New   Resolved    Consolidated   Ending
                                                        Balance                                          Balance
Lack of U.S. Standard General Ledger Compliant,                                                            
Transaction-based Accounting Systems for Direct-care
Costs (Carried Forward and Updated Finding from
Fiscal Year (“FY”) 2005)
Direct Care Cost Data Accumulation (Carried Forward                                                        
and Updated Finding from Fiscal Year FY2005)
Untimely receipt of quarterly purchased care retail                              
pharmacy refund calculations
Total Material Weaknesses                                    3           0        1            0            2



Table 2.
Summary of Management Assurances
                     Effectiveness of Internal Controls over Financial Reporting (FMFIA § 2)
Statement of Assurance                                                            Qualified

Material Weaknesses                      Beginning     New   Resolved         Consolidated    Reassessed        Ending
                                         Balance                                                                Balance
Independent auditor was unable to                                                                                  
obtain sufficient, appropriate audit
evidence from currently existing non-
compliant U.S. Standard General
Ledger transaction-based accounting
systems to support the costs of direct
care provided by DoD-managed
Military Treatment Facilities.
(Carried Forward and Updated
Finding from Fiscal Year (“FY”)
2005)
***Government’s inability to submit                                                                               
timely invoices to drug
manufacturers for retail pharmacy
refunds, prevented the auditor from
obtaining appropriate audit evidence
to test and evaluate the drug refund
accounts receivables.
Total Material Weaknesses                    1          1           0                 0             0              2

***MERHCF includes auditor-identified weaknesses in its annual assessment of internal controls from the prior
year audit. Due to the timing of MERHCFs assessment which reported during June 2011, MERHCF’s assessment
may differ from the auditor’s reported weaknesses for the current FY which are reported as of September 2011.




                                                       45
                                                            Other Accompanying Information

Table 3.
Conformance with financial management system requirements (FMFIA § 4)
Statement of Assurance            Purchased Care systems conform to financial management systems requirements:
                                  Direct Care Costs systems do not comply with financial management systems
                                  requirements.

Non-Conformances                       Beginning    New    Resolved      Consolidated   Reassessed       Ending
                                       Balance                                                           Balance
Independent auditor was unable to                                                                           
obtain sufficient, appropriate audit
evidence from currently existing
non-compliant U.S. Standard
General Ledger transaction-based
accounting systems to support the
costs of direct care provided by
DoD-managed Military Treatment
Facilities. (Carried Forward and
Updated Finding from Fiscal Year
(“FY”) 2005)
Total non-conformances                      1        0          0             0               0              1

                    Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                Agency                         Auditor
Overall Substantial Compliance                                    No                              No
1. Systems Requirements                                  Yes for Purchased Care; - No for Direct Care
2. Accounting Standards                                  Yes for Purchased Care; - No for Direct Care
3. USSGL at Transaction Level                            Yes for Purchased Care; - No for Direct Care


Note: The above uncorrected weakness combines the two reported Direct Care material
weaknesses identified by the independent auditor in the audit of the FY 2011 MERHCF financial
statements. Identification and implementation of appropriate corrective actions to resolve this
one material weakness will result in successful correction of the two Direct Care material
uncorrected weaknesses identified in the FY 2011 MERHCF audit




                                                    46
                                                      Other Accompanying Information

Exhibit 3--IPIA Reporting Details September 30, 2011


Improper Payments Information Act Reporting

The Improper Payments Information Act (IPIA) of 2002, as implemented by the OMB Circular
A-123, Appendix C, “Requirements for Effective Measurement and Remediation of Improper
Payments,” requires Federal agencies to review all programs and activities annually and identify
those that may be susceptible to significant erroneous payments. The Department’s FY 2010
review did not identify any programs at risk of significant erroneous payments in accordance
with OMB criteria (programs with erroneous payments exceeding both $10 million and 2.5% of
program payments).

Risk Assessment

The Department’s risk assessment for Military Health Benefits addressed the effectiveness of
internal controls for preventing improper payments (such as prepayment reviews), as well as
system weaknesses identified internally or by outside audit activities. While the Department’s
improper payment percentages are low, numerous pre- and post-payment controls further
minimize and eliminate improper payments.

On a quarterly basis, the Department audits statistically valid samples of health care claims.
Over the years, these audits consistently have produced an error rate of less than the 2%
performance standard contained in TRICARE contracts. Errors in health care claims processing
potentially can be related to improperly submitted claims by providers, as well as a minimal
degree of human error expected with handling a large volume of claims under the tight time
parameters established by the Prompt Payment Act regulations and the claims processing
timeliness performance standard.

Numerous prepayment and post-payment controls are built into the military health benefits’
claims processing system to minimize improper payments. Every claim is adjudicated against
this system of checks and balances. One control is the prepayment review required under the
contract. The contractor uses this strategy to prevent payment for questionable billing practices.
Prepayment review allows for a closer examination of the services rendered and may require the
provider to submit medical documentation to support the services billed. In addition, the
Department of Defense requires the contractor to have an anti-fraud unit to identify and
investigate any pattern of suspicious or potential fraudulent billings. Recoupment from cases
identified, combined with proactive case work are additional benefit dollars returned to the Fund.


Statistical Sampling Process

To determine an estimate of the annual amount of improper payments, the Department of
Defense uses a statistically valid method of sampling for the managed care support services
contracts and the Medicare dual eligibility contractor.



                                               47
                                                               Other Accompanying Information

         The Department samples data records for review for claims processed by the Medicare dual
         eligible contractor quarterly. There are two kinds of payment samples, one for non-denied
         claims and one for denied claims. For the Medicare dual eligible contract, the non-denied
         payment sample will be drawn from all records with government payments of $1 to $25,000. All
         records with a government payment of $25,000 and over will be audited. The denied payment
         sample will be drawn from all records with a billed amount of $1 to $500,000. All records with
         billed amounts of $500,000 and over will be audited. The non-denied sample will be stratified at
         multiple levels within the $1 to $25,000 range, and the denied payment sample will be stratified
         at multiple levels within the $1 to $500,000 range.


         Corrective Action Plan

         The Department’s contracts have had payment performance standards for military health benefit
         claims processing in place for many years. The estimate of 2 percent is based on the contract
         performance standard. However, actual results have been consistently less than 1 percent. FY
         2009 results reflect an improper payment rate of 0.42%; FY 2010 results reflect an improper
         payment rate of 0.24%. Contractors exceeding the 2% performance standard are subjected to a
         financial disincentive for erroneous claims payments. In addition, the contractors are financially
         liable for payment of non-allowable claims. This contractual design, combined with numerous
         prepayment and post-payment controls, effectively minimizes improper payments and ensures
         the Government’s risk for improper payments in military health benefits is minimized..


         Military Health Benefits Program Improper Payment Reporting


       FY 2010                FY 2011         FY 2012 Estimated       FY 2013 Estimated       FY 2014 Estimated
Outlays    IP   IP      Outlay    IP  IP     Outlays IP      IP      Outlays    IP    IP     Outlays    IP    IP
 ($B)     (%)  ($M)     s ($B) (%) ($M)        ($B)   (%) ($M)        ($B)     (%) ($M)       ($B)     (%) ($M)

 $12.6   0.24   $30.2   $16.0     2   $321     $16.4    2    $328     $17.5     2    $351     $19.0      2    $380


         1. The final payment error rate for FY 2010 is 0.24% ($30.2M), which is less than the contract
         performance standard of 2% ($249.6M) used in the FY 2010 AFR calculation. The error rate in
         FY 2011 and beyond is a conservative estimate based on the 2% contract performance standard.

         2. The FY 2010 outlays include all benefit dollars subject to the audit process. Fee-for-service
         claims are considered susceptible to improper payments as payment is made based upon an
         individual claim submitted by a provider or beneficiary certifying services were provided as
         billed. Administrative or change order costs are not included, as those costs do not fall into the
         definition of areas susceptible to improper payments.




                                                        48
                                                     Other Accompanying Information

3. The FY 2010 outlays do not include:

   •   The Designated Providers (U.S. Family Health Plan) contracts, through which a set
       amount is paid for each patient’s care on a per member per month basis. The contractor
       is 100% responsible for improper payments; there is no shared risk with the Government.
       The Defense Contract Audit Agency conducts reconciliations to validate correct capitated
       payments for the enrolled population. Government liability is limited to the amount paid
       to the contractor regardless of the cost of health care services.

   •   Pharmacy claims ($6.4 billion). Under the TRICARE Claims Audit Reimbursement
       Contract (TCARS), which became effective September 1, 2010, auditing of claims
       processing has begun. Audit findings will be reported for FY 2011 in the Agency
       Financial Report (AFR) for FY 2012.

   •   Foreign claims were not included in audit. TRICARE Overseas Program (TOP) auditing
       commenced in FY 2011. Audit findings will be reported for FY 2011 in the AFR for FY
       2012.




                                              49
50
DoD Endorsement of Auditors’ Opinion




                 51
52
53
54
Independent Auditors’ Reports




             55
56
57
58
59
60
61
62
63
64
